Office of Material Loss Reviews
Report No. MLR-10-009


Material Loss Review of America West Bank,
Layton, Utah




                                  December 2009
                                     Executive Summary

                                     Material Loss Review of America West Bank,
                                     Layton, Utah
                                                                                    Report No. MLR-10-009
                                                                                           December 2009

Why We Did The Audit

On May 1, 2009, the Utah Department of Financial Institutions (UDFI) closed America West Bank
(AWB) and named the FDIC as receiver. On June 5, 2009, the FDIC notified the Office of Inspector
General (OIG) that AWB’s total assets at closing were $310 million and the material loss to the Deposit
Insurance Fund (DIF) was $119 million. As required by section 38(k) of the Federal Deposit Insurance
(FDI) Act, the OIG conducted a material loss review of the failure of AWB.

The audit objectives were to (1) determine the causes of AWB’s failure and the resulting material loss to
the DIF and (2) evaluate the FDIC’s supervision of AWB, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38.


Background

AWB was an FDIC-supervised state-chartered limited liability company (LLC) established by the UDFI
and insured by the FDIC effective May 18, 2000. The institution was headquartered in Layton, Utah,
with three other offices in Utah. AWB was wholly owned by America West Bank Members, LLC, a one-
bank holding company organized in June 2005. AWB’s Chairman of the Board of Directors (Board) and
his family collectively controlled 61 percent of the holding company. Affiliated entities included an
entity for the issuance of trust preferred securities, an aviation entity, and other companies under the
control of the Chairman. AWB specialized in real estate lending, with concentrations in commercial real
estate (CRE) and acquisition, development, and construction (ADC) loans.


Audit Results

Causes of Failure and Material Loss

AWB failed because the bank’s Board and management deviated from the bank’s business plan and did
not effectively manage the risks associated with rapid growth in CRE and ADC lending. AWB lacked
adequate loan underwriting, credit administration, and allowance for loan and lease loss practices. AWB
also relied heavily on wholesale funding sources, primarily brokered deposits, to fund its CRE and ADC
concentrations. Finally, AWB was cited for apparent violations and contraventions of various laws,
regulations, and interagency policies in seven of eight examinations. In a declining real estate market,
AWB could not withstand significant loan losses, which led to quick and substantial erosion of the bank’s
capital. AWB’s liquidity position became strained as the bank’s financial condition deteriorated and
access to certain funding sources was restricted. Ultimately, AWB was closed by UDFI due to the bank’s
capital insolvency in May 2009.

The FDIC’s Supervision of AWB

The FDIC and UDFI provided ongoing supervision of AWB and performed eight on-site examinations
and four visitations from 2000 to 2009. The FDIC also conducted offsite monitoring activities from
December 2003 to March 2008. The examinations and visitations included examiner concerns and
recommendations related to issues such as the unsatisfactory performance of AWB’s management, the




                                 To view the full report, go to www.fdicig.gov
   Executive Summary                 Material Loss Review of America West Bank,
                                     Layton, Utah
                                                                                     Report No. MLR-10-009
                                                                                            December 2009

bank’s CRE and ADC concentrations, loan underwriting and credit administration deficiencies, weak risk
management practices, heavy reliance on non-core deposits to fund asset growth, unsatisfactory liquidity
levels, and inadequate capital position. Examiners also reported apparent violations of law and
contraventions of policy associated with the institution’s lending practices and insider transactions. In
2002 and 2003, and as the institution’s condition deteriorated in 2008, the FDIC and UDFI took
enforcement actions to address identified deficiencies. While consistent with DSC policy at the time,
stronger action may have been prudent in 2002 and 2003 in light of the bank’s de novo status and material
deviations from its business plan. Further, additional supervisory action could have been taken to address
the bank’s high-risk profile at the time of the January 2007 examination, although the financial
implications of the bank’s inadequate practices were not yet apparent in the loan portfolio.

With respect to PCA, we concluded that the FDIC properly implemented applicable PCA provisions of
section 38 based on the supervisory actions taken for AWB. However, the effectiveness of PCA was
impacted by capital injections from the bank’s holding company and activities by the bank that were
inconsistent with the Act’s provisions.


Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On December 4, 2009, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report.

DSC reiterated the OIG’s conclusions regarding the causes of AWB’s failure. With regard to our
assessment of the FDIC’s supervision of AWB, DSC acknowledged the need for more stringent
supervisory attention for de novo institutions, and as a result, the FDIC recently extended the de novo
period from the previous 3-year period to 7 years and stated that these institutions will receive a full-
scope examination every year for that 7-year period. DSC further stated that de novo business plans are
being closely monitored against approved financial projections, and changes taken without prior notice
may result in civil money penalties.




                                 To view the full report, go to www.fdicig.gov
                                   Contents
                                                                              Page
Background                                                                      2

Causes of Failure and Material Loss                                             3
   Rapid Asset Growth                                                           3
   CRE and ADC Loan Concentrations                                              4
   Loan Underwriting and Credit Administration Practices                        6
   Allowance for Loan and Lease Losses                                          8
   Reliance on Wholesale Funding and Contingency Liquidity Planning             8
   Apparent Violations of Laws and Regulations and Contraventions of Policy    10

The FDIC’s Supervision of AWB                                                  11
   Supervisory History                                                         11
   Supervisory Response to Risks Identified at AWB                             15
   Implementation of PCA                                                       18

Corporation Comments                                                           21

Appendices
  1. Objectives, Scope, and Methodology                                        22
  2. Glossary of Terms                                                         25
  3. Acronyms                                                                  27
  4. Corporation Comments                                                      28

Tables
   1. Financial Condition of AWB                                                2
   2. AWB’s CRE and ADC Concentrations as a Percent of Total Loans              4
         Compared to Peers, 2001 ― 2009
   3. Synopsis of Examiner Comments Regarding AWB’s Loan Underwriting           7
         and Credit Administration
   4. AWB’s Total Brokered Deposits Compared to Total Deposits and              9
         Net Non-Core Funding Dependence Ratios
   5. AWB’s Examination and Visitation History, November 2000 ―                12
         February 2009
   6. AWB’s Capital Ratios                                                     19

Figures
   1. AWB’s Annual Growth Rate Compared to Peers                                3
   2. AWB’s ADC Concentration to Total Capital Compared to Peers                5
   3. AWB’s CRE Concentration to Total Capital Compared to Peers                6
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                            Office of Inspector General


DATE:                                     December 4, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews


SUBJECT:                                  Material Loss Review of America West Bank, Layton, Utah
                                          (Report No. MLR-10-009)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of America
West Bank, Layton, Utah (AWB). On May 1, 2009, the Utah Department of Financial
Institutions (UDFI) closed the institution and named the FDIC as receiver. On June 5,
2009, the FDIC notified the OIG that AWB’s total assets at closing were $310 million
and the material loss to the Deposit Insurance Fund (DIF) was $119 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
Appendix 1 contains details on our objectives, scope, and methodology. Appendix 2
contains a glossary of terms and Appendix 3 contains a list of acronyms used in the
report. Appendix 4 contains the Corporation’s comments on this report.



1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations, and (2) issues related guidance to institutions and examiners.
This report presents the FDIC OIG’s analysis of AWB’s failure and the FDIC’s efforts to
ensure AWB’s management operated the bank in a safe and sound manner. We are not
making recommendations. Instead, as major causes, trends, and common characteristics
of financial institution failures are identified in our reviews, we will communicate those
to management for its consideration. As resources allow, we may also conduct more in-
depth reviews of specific aspects of DSC’s supervision program and make
recommendations, as warranted.


Background
AWB was an FDIC-supervised state-chartered limited liability company (LLC)
established by the UDFI and insured by the FDIC effective May 18, 2000.3 At the time
AWB was established and received deposit insurance, the bank was designated as a “de
novo” institution, indicating a newly established bank that is in its first 3 years of
operation.4 AWB was headquartered in Layton, Utah, with three other offices in Utah.
AWB specialized in real estate lending, with concentrations in commercial real estate
(CRE) and acquisition, development, and construction (ADC) loans.

AWB was wholly owned by America West Bank Members, LLC., a one-bank holding
company organized in June 2005. AWB’s Chairman of the Board of Directors (Board)
and his family collectively controlled 61 percent of the holding company. Affiliated
entities included an entity for the issuance of trust preferred securities, an aviation entity,
and other companies under the control of the Chairman. Table 1 presents a summary of
AWB’s financial condition as of December 2008 and for the 4 preceding calendar years.


    Table 1: Financial Condition of AWB
                              Dec-08         Dec-07       Dec-06       Dec-05       Dec-04
    Financial Measure                             (Dollars in Thousands)
       Total Assets            $299,424       $270,992     $185,435    $104,104      $64,374
       Total Loans              $230,712      $249,407     $164,798     $82,994      $44,842
      Total Deposits            $284,065      $244,949     $167,232     $89,045      $49,964
     Net Income (Loss)         ($11,179)        $8,081       $5,222      $1,915       $1,148
    Source: Uniform Bank Performance Reports (UBPR) for AWB.




3
    AWB, originally organized as a Subchapter-S Corporation, changed its structure to an LLC in June 2005.
4
    On August 26, 2009, the FDIC extended the de novo period for newly chartered institutions to 7 years.


                                                      2
Causes of Failure and Material Loss
AWB failed because the bank’s Board and management deviated from the bank’s
business plan and did not effectively manage the risks associated with rapid growth in
CRE and ADC lending. AWB lacked adequate loan underwriting, credit administration,
and allowance for loan and lease loss (ALLL) practices. AWB also relied heavily on
wholesale funding sources, primarily brokered deposits, to fund its CRE and ADC
concentrations. Finally, AWB was cited for apparent violations and contraventions of
various laws, regulations, and interagency policies in seven of eight examinations. In a
declining real estate market, AWB could not withstand significant loan losses, which led
to quick and substantial erosion of the bank’s capital. AWB’s liquidity position became
strained as the bank’s financial condition deteriorated and access to certain funding
sources was restricted. Ultimately, AWB was closed by UDFI due to the bank’s capital
insolvency in May 2009.

Rapid Asset Growth

AWB’s business plan projected that at the end of its second year, the bank’s total assets
would have grown at a cumulative rate of 37.03 percent. However, the bank’s
cumulative total asset growth rate for that timeframe was 156.33 percent, more than four
times the projection. As early as the July 2002 examination,5 examiners concluded that
the Board appeared to overemphasize income or earnings rather than sound asset quality
as it pursued growth. As shown in Figure 1, AWB’s annual growth rates began to exceed
its peer group in 2004 and peaked in December 2006 at over 78 percent, compared to a
growth rate of 9.85 percent for the bank’s peer group.
         Figure 1 : AWB’s Annual Growth Rate Compared to Peers


                          90
                                                            78.12%
                          80
                          70
             Percentage




                          60
                          50
                             34.83%
                          40                                                                  AWB
                          30                                                                  Peer
                          20
                          10
                           0
                                1
                             2002       2
                                      2003     3
                                             2004     4
                                                    2005      5
                                                            2006       6
                                                                     2007       7
                                                                              2008


                                              Years Ending December 31

         Source: UBPRs for AWB.


5
  Unless otherwise noted in this report, references to examination dates will refer to the month and year of
the examination start dates.


                                                        3
CRE and ADC Loan Concentrations

AWB’s business plan indicated that the bank would have a diversified loan mix whereby
no general loan type would comprise more than 40 percent of the overall loan portfolio.
However, AWB pursued a lending strategy that resulted in CRE and ADC
concentrations, both of which exceeded 40 percent of total loans throughout the bank’s
existence.

Examiners determined that AWB was developing a concentration at the bank’s first
visitation in November 2000. As early as the May 2001 examination, AWB’s CRE and
ADC loan concentrations as a percent of total loans were 64 and 51 percent, respectively.
Table 2 shows that AWB (1) consistently and significantly exceeded both the 40 percent
parameter established in the bank’s business plan and the range for CRE and ADC loans
for its peer group; and (2) was consistently in a high percentile for those concentrations.

   Table 2: AWB’s CRE and ADC Concentrations as a Percent of Total Loans
            Compared to Peers, 2001 ― 2009
           Type of Concentration          AWB           Peer Group        Percentile for AWB
           CRE concentration            64%-96%          37%-50%               73%-98%
           ADC concentration            51%-89%          8%-16%                  99%*
   Source: UBPRs for AWB.
                           th
   * AWB remained in the 99 percentile for UBPR periods for which data was available.

In October 1998, the FDIC issued Financial Institution Letter (FIL) FIL-110-98, which
states that ADC lending is a highly specialized field with inherent risks that must be
managed and controlled to ensure that this activity remains profitable. The FIL further
indicates that management’s ability to identify, measure, monitor, and control portfolio
risk through effective underwriting policies, systems, and internal controls is crucial to a
sound ADC lending program, and that risk-monitoring techniques for ADC lending
should be commensurate with the level of real estate activity and the nature and
complexity of the institution’s market.

Subsequently, in 2006, the federal banking agencies established guidelines in Financial
Institution Letter FIL-104-2006, entitled, Guidance on Concentrations in Commercial
Real Estate Lending, Sound Risk Management Practices, dated December 12, 2006,
which states that concentrations can pose substantial potential risks and can inflict large
losses on institutions. The guidance includes the following supervisory criteria for
identifying banks that may have potentially significant CRE concentrations and warrant
greater supervisory scrutiny:

            ADC loans representing 100 percent or more of total capital, or
            Total CRE loans representing 300 percent or more of the institution’s total
             capital, where the outstanding balance of the institution’s CRE loan portfolio
             has increased by 50 percent or more during the prior 36 months.

Examiners noted the significantly high ADC and CRE concentrations in each of the
bank’s examinations and visitations. The May 2001 examination reported that over half


                                                  4
of the bank’s loan portfolio consisted of ADC loans, which were heavily reliant on a
continued strong local real estate market, and concluded that (1) the bank’s credit
concentration presented elevated concern and (2) a sudden downturn in the economy in
the local real estate economy could expose the bank to potential loss. Examiners
recommended that bank management closely monitor the local real estate market and, if
necessary, take action to minimize the associated risk, and encouraged bank management
to diversify AWB’s loan portfolio.

As shown in Figures 2 and 3, despite the examiners’ recommendations, AWB not only
continued but intensified its levels of ADC and CRE concentrations. From 2007 until the
bank closed, those levels exceeded the parameters for concentrations that warrant greater
supervisory concern according to FIL-104-2006.

    Figure 2: AWB’s ADC Concentration to Total Capital Compared to Peers

                    1200
                                                           1,111%
                    1000
                                                    873%

                    800                    693%
       Percentage




                                                                           AWB ADC
                                   576%
                                                                           Concentrations
                    600
                           385%                                            Peer ADC
                                                                           Concentration
                    400

                    200                      107%     91%      111%
                            54%     60%
                      0
                            4/04
                              1     8/05
                                     2      1/07
                                             3        1/08
                                                       4            2/09
                                                                     5
                                      Examination Dates

    Source: OIG review of UBPRs for AWB.




                                                       5
       Figure 3: AWB’s CRE Concentration to Total Capital Compared to Peers
                       1200
                                                              1,142 %
                       1000
                                                      901%
                       800                     699%
         Percentages

                                                                                AWB CRE
                                      594%                                      Concentrations
                       600
                              413%                                              Peer CRE
                                                                                Concentrations
                       400

                       200                      343%
                               244%     249%                 329%       379%
                         0
                              4/04
                               1        8/05
                                         2        1/07
                                                  3           1/08
                                                              4          2/09
                                                                         5
                                         Examination Dates

       Source: OIG review of UBPRs for AWB.
       Note: Owner occupied loans were not included in the 2008 and 2009 CRE concentrations.

AWB’s risky strategy resulted in much higher rates of return than those of the bank’s
peer group through 2007. Unlike the bank’s peer group, which experienced a rate of
return ranging from 1.06 percent to 1.30 percent before the economic decline started in
2007, AWB’s rate of return on assets (ROA) ranged from 1.88 percent to 3.66 percent for
the same period. However, as discussed in FIL-104-2006, rising CRE concentrations can
expose institutions to unanticipated earnings and capital volatility in the event of adverse
changes in the general CRE market. Accordingly, when the real estate market
deteriorated in 2007, AWB’s ROA dropped from 3.66 percent in 2007 to negative
3.47 percent in 2008.

During the October 2008 visitation, examiners concluded that a significant amount of the
bank’s $33.4 million in ADC loans and an additional $54.5 million in lot loans were
delinquent, and would likely lead to significant losses for the bank. Just 4 months later,
at the February 2009 examination, examiners concluded that the risks in the bank’s loan
portfolio concentration had become more apparent as the real estate market downturn
intensified. Assets that were classified as a “loss” totaled more than $17.6 million, of
which $12.2 million were loans. The majority of these loans were related to ADC.

Loan Underwriting and Credit Administration Practices

As shown in Table 3, examiners consistently expressed confidence in bank
management’s ability to decrease or mitigate the risk associated with CRE and ADC
lending from the July 2002 through the January 2007 examinations. During that
timeframe, examiners included recommendations aimed at improving AWB’s loan
underwriting and credit administration practices and, according to DSC officials, the
bank took actions to address some of the related deficiencies.



                                                         6
 Table 3: Synopsis of Examiner Comments Regarding AWB’s Loan Underwriting
          and Credit Administration
 Examination                                 Synopsis of Examiner Comments
     Date
July 2002        Management’s expertise and internal controls related to real estate construction lending
                 decreased the credit risk associated with this type of credit. Bank personnel were well
                 qualified and experienced in construction real estate lending. Nevertheless, examiners
                 recommended that bank management enhance underwriting guidelines.
April 2003       Management’s familiarity with the local real estate market, in addition to the adequate
                 internal controls related to real estate construction lending, decreased the risk associated
                 with this type of credit. Despite management’s expertise and internal controls in the real
                 estate construction lending area, management should consider recommendations to
                 enhance policy underwriting guidelines.
April 2004       Examiners generally concluded that risk management practices were adequate except as
                 they related to approval of loans and significant exceptions to board-approved policies
                 concerning speculative construction lending.
August 2005      Examiners made recommendations related to monitoring and reporting CRE and ADC
                 concentrations to better manage the risk of AWB’s significant real estate concentrations,
                 such as amending the Loan Policy to include (1) policy limits for concentrations relative
                 to Tier 1 capital; (2) requirements for periodic monitoring of concentrations by the Board;
                 (3) policy limits for various subcategories, i.e., loan types, collateral types, geographic
                 distribution, industry, and borrower; and (4) measurements under the policy limits to
                 consider both funded and unfunded commitments.
January 2007     Examiners generally concluded that credit risk associated with AWB’s concentrations was
                 mitigated by bank management’s adequate expertise and/or internal controls and effective
                 risk management practices, with recommendations made relative to monitoring and
                 reporting, at least until the July 2007 visitation of AWB.
January 2008     Examiners concluded that management had implemented some of the recommendations
                 made in January 2007 and stated that bank management needed to implement additional
                 procedures and/or reporting to fully comply with the standards for sound risk management
                 practices delineated in the December 2006 Guidance. Those procedures included, but
                 were not limited to the following:
                     develop aggregate limits for each segment (i.e., Pre-Sold Construction),
                     avoid the use of "catch-all" categories on the concentration report,
                     ensure that strategic plans address the rationale for concentration levels,
                     strengthen controls and procedures on loan categorization, and
                     consider auditing the concentration reporting and monitoring on a periodic basis.

Source: Reports of Examination (ROE) for AWB.

By late 2007, however, examiners began identifying increasing problems with AWB’s
construction loan portfolio. Most notably, examiners cited loan policy exceptions that
included (1) little or no actual paid-in cash equity by borrowers, (2) stated income loans,
and (3) collateral-dependent loans. Shortly thereafter, at the January 2008 examination,
examiners noted continued loan policy exceptions and the inappropriate use of interest
reserves. At the bank’s final examination in 2009, examiners noted frequent renewals,
modifications, and extensions made to borrowers with credit deficiencies and without
obtaining updated appraisals, and concluded that the risks from AWB’s excessively high
concentrations in higher risk CRE loans had become more apparent as the real estate
market downturn had intensified.




                                                    7
Allowance for Loan and Lease Losses

Examiners first recommended improvements in AWB’s ALLL practices at the 2005
examination. By the 2007 and 2008 examinations, deterioration in asset quality was
evident, adversely classified loans had risen, and increases in the bank’s ALLL were
required. Concerns regarding these issues continued and intensified subsequent to the
January 2007 examination, when adverse classifications totaled 25.63 percent of Tier 1
Capital.

        October 2008 visitation. Examiners concluded that adversely classified assets
         represented approximately 300 percent of the bank’s capital and reserves. In
         addition, AWB’s ALLL was grossly underfunded and would require a large
         provision expense to return the ALLL to a minimally acceptable level. The
         bank’s net loss of $2 million, as of September 30, 2008, resulted primarily from
         $5.6 million in ALLL provisions.

        February 2009 examination. The adversely classified items had increased
         substantially to 623 percent of Tier 1 Capital and reserves, indicating significant
         deterioration in the bank’s loan portfolio, and loans classified as Loss totaled
         $12.2 million. Examiners concluded that the ALLL was materially inadequate
         and recommended an increase of $15 million to return the ALLL to a minimally
         acceptable level.

Reliance on Wholesale Funding and Contingency Liquidity Planning

As early as July 2002, examiners noted that AWB’s Board and management implemented
a strategy focused on the use of wholesale funding sources to accommodate high loan
demand and slow core deposit growth. At that examination, examiners also noted that
AWB’s management needed to develop a contingency liquidity plan (CLP).

Wholesale Funding Sources

Contrary to its business plan, AWB pursued a risky business strategy that included a
heavy reliance on wholesale funding sources, including brokered deposits and large time
deposits, to fund its CRE and ADC concentrations. Consequently, when the bank’s
financial condition deteriorated, AWB’s access to brokered deposits and interest rates
that could be paid on Internet deposits were restricted in compliance with Section 29 of
the FDI Act6 and in conjunction with enforcement actions issued against AWB.7



6
  According to section 29 of the FDI Act, once an institution is determined to be Undercapitalized, as
defined in Part 325 of the FDIC Rules and Regulations, the institution is prohibited from receiving
brokered deposits. In addition, section 38 of the FDI Act permits the FDIC to restrict the interest rates paid
by a Significantly Undercapitalized institution. Although AWB filed a brokered deposit waiver with the
FDIC, the request was denied due to the bank’s deteriorated financial condition.
7
  The FDIC and UDFI independently issued Cease and Desist (C&D) Orders against AWB in September
2008. Those actions will be discussed in detail in The FDIC’s Supervision of AWB section of this report.


                                                      8
When properly managed, non-core funding sources can offer important benefits, such as
ready access to funding in national markets when core deposit growth in local markets
lags planned asset growth. However, according to the DSC Risk Management Manual of
Examination Policies (Examination Manual), (1) non-core funding sources present
potential risks, such as higher costs and increased volatility; and (2) placing heavy
reliance on potentially volatile funding sources to support asset growth is risky because
access to these funds may become limited during distressed financial or market
conditions. A bank’s net non-core funding dependence ratio indicates how much a bank
is relying on non-core/volatile liabilities to fund assets. Table 4 shows the extent of
AWB’s reliance on non-core deposits, and how that reliance increased dramatically over
time and consistently and significantly exceeded its peer group.

 Table 4: AWB’s Total Brokered Deposits Compared to Total Deposits and Net
          Non-Core Funding Dependence Ratios
                                                                      Net Non-Core Funding
                                 Non-Core Deposits
                                                                      Dependence Ratios and
                            (Dollars in Thousands)                          Percentile
                                                    Total Time
                                     Percent          Deposits
           Total
                       Brokered      of Total       (Greater Than             Peer
  Date    Deposits     Deposits      Deposits         $100,000)     AWB      Group    Percentile
 Dec-01   $27,270     $5,656           21%          $9,178          52.85%   13.71%      97
 Dec-02   $34,100     $6,775           20%          $14,887         59.59%   11.89%      95
 Dec-03   $38,025     $9,287           24%          $18,369         61.96%   11.15%      99
 Dec-04   $49,964     $20,976          42%          $28,107         66.28%   13.41%      99
 Dec-05   $89,045     $62,607          70%          $59,280         75.54%   12.25%      99
 Dec-06   $167,232    $122,944         74%          $134,153        81.17%   21.13%      99
 Dec-07   $244,949    $217,485         89%          $8,817          84.71%   23.72%      99
 Dec-08   $284,065    $222,397         78%          $23,808         82.30%   30.37%      99
 Mar-09   $286,040    $210,716         74%          $26,046         83.46%   23.43%      99
 Source: ROEs and UBPRs for AWB.

Contingency Liquidity Planning

When a bank’s financial condition deteriorates, access to various sources of funding can
become restricted. Examiners for the January 2008 examination concluded that AWB’s
liquidity position was unsatisfactory given the level of asset growth. Although AWB had
a CLP, which was included in the bank’s December 2006 Asset Liability Management
Policy, examiners expressed concern regarding secondary sources of funding for the bank
and reported that the bank’s CLP was not viable. AWB’s CLP did not include many of




                                                9
the elements suggested by FDIC guidance,8 such as (1) possible liquidity events that an
institution might encounter and consideration of the range of probability of events that
can arise through institution-specific, systemic market, or operational circumstances;
(2) potential for erosion by funding sources under various scenarios; and (3) indicators
that would alert bank management to a predetermined level of potential risks. A
comprehensive CLP could have assisted in projecting and planning for viable sources for
AWB’s liquidity needs as the bank’s financial condition began to deteriorate and
applicable restrictions to sources of funding became imminent.

In spite of the excessive level of brokered deposits used by AWB and the associated risk,
bank management did not attempt to change its funding strategy or ensure that
appropriate contingency planning had been accomplished before significant financial
deterioration had occurred. Rather, as AWB’s financial condition deteriorated, as noted
in the February 2009 examination report, the bank’s access to non-core funding sources
became restricted, and AWB’s attempts to increase core deposits were not successful.
The February 2009 examination concluded that the institution’s liquidity position was
critically deficient and sources of funding were limited. In addition, AWB replaced the
brokered deposits with another wholesale funding source—Internet certificates of deposit
(CD)—which violated interest rate restrictions.

Apparent Violations of Laws and Regulations and Contraventions of Policy

According to the Examination Manual, it is important for the bank’s Board to ensure that
bank management is cognizant of applicable laws and regulations; develops a system to
effect and monitor compliance; and, when violations do occur, takes corrective action as
quickly as possible. In the case of AWB, examiners reported apparent violations and
contraventions in seven of AWB’s eight examinations related to transactions with
affiliates and insiders, unsafe and unsound practices, appraisals, real estate lending, and
ALLL.

The January 2008 examination report stated that some of the violations cited at this and
past examinations were due to bank management’s unfamiliarity with banking
regulations. Examiners also concluded that:

         more experience or proper oversight by bank management would have prevented
          the apparent violations;



8
  The FDIC issued FIL-59-2003, entitled, Use of the Federal Reserve’s Primary Credit Program in
Effective Liquidity Management, dated July 23, 2003, which provided interagency guidance on the need for
financial institutions to develop CLPs, in addition to other liquidity risk management controls, and
informed financial institutions that a CLP should be part of the bank’s liquidity management program. The
guidance also stated that an adequate CLP is critical to the ongoing maintenance of the safety and
soundness of any financial institution. The FDIC also issued FIL-84-2008, entitled, Liquidity Risk
Management, dated August 26, 2008, which states that institutions that use wholesale funding,
securitizations, brokered deposits, and other high-rate funding strategies should ensure that their
contingency funding plans address relevant stress events.


                                                   10
       the level and type of apparent violations did not reflect well on management’s
        abilities, indicating a lack of control by management over operations to identify
        and control risks; and

       the apparent violations and contraventions were a basis to question either
        management’s abilities or willingness to thoroughly comply with regulations,
        policy, and guidance.

During the February 2009 examination, the FDIC and UDFI considered management
critically deficient based on, among other things, the bank’s noncompliance with the
FDIC’s Final Order for Deposit Insurance, and continued apparent violations of laws
and regulations, in addition to the poor overall financial condition of the bank and
inadequately funded ALLL. Moreover, it was determined that AWB acted in apparent
violation of section 29 of the FDI Act provisions and the terms of the C&Ds issued in
September 2008, by increasing its level of brokered deposits without obtaining prior
regulatory approval. AWB also apparently violated section 29 by paying interest rates
greater than regulatory limits, thereby exceeding the maximum permissible yield for its
capital category.


The FDIC’s Supervision of AWB
The FDIC and UDFI provided ongoing supervision of AWB and performed eight on-site
examinations and four visitations from 2000 to 2009. The FDIC also conducted offsite
monitoring activities from December 2003 to March 2008. The examinations and
visitations included examiner concerns and recommendations related to issues such as the
unsatisfactory performance of AWB’s management, the bank’s CRE and ADC
concentrations, loan underwriting and credit administration deficiencies, weak risk
management practices, heavy reliance on non-core deposits to fund asset growth,
unsatisfactory liquidity levels, and inadequate capital position. Examiners also reported
apparent violations of law and contraventions of policy associated with the institution’s
lending practices and insider transactions. In 2002 and 2003, and as the institution’s
condition deteriorated in 2008, the FDIC and UDFI took enforcement actions to address
identified deficiencies. While consistent with DSC policy at the time, stronger action
may have been prudent in 2002 and 2003 in light of the bank’s de novo status and
material deviations from its business plan. Further, additional supervisory action could
have been taken to address the bank’s high-risk profile at the time of the January 2007
examination, although the financial implications of the bank’s inadequate practices were
not yet apparent in the loan portfolio.

Supervisory History

The FDIC and UDFI provided continued on-site and offsite monitoring of AWB from the
bank’s inception in 2000 through its failure. The two regulatory agencies also conducted
a targeted review in November 2007 and December 2007, which was part of an overall




                                           11
risk assessment project that focused on residential ADC lending at eight Utah state-
chartered banks.

AWB consistently received composite “2” CAMELS ratings9 until the January 2008
examination, which revealed significant financial deterioration in the bank’s overall
performance, and as a result its composite rating was downgraded to a “4”. At the
February 2009 examination, examiners identified continued deterioration in the bank’s
performance that resulted in a further downgrade of the composite rating to a “5”,
indicating extremely unsafe and unsound practices or conditions, critically deficient
performance, and inadequate risk management practices. Table 5 summarizes key
information pertaining to examinations and visitations, including the Bank Board
Resolutions (BBR) issued in 2002 and 2003, and the C&Ds issued as a result of the
January 2008 examination.

    Table 5: AWB’s Examination and Visitation History, November 2000 – February
             2009
                                                         Supervisory
      Examination      Examination
                                           Agency          Ratings              Supervisory Action
       Start Date       as of Date
                                                           (UFIRS)
       11/06/2000           09/30/2000   FDIC/UDFI         222222/2                     None
       (Visitation)
       05/14/2001           03/31/2001   FDIC/UDFI         222323/2                      None
       07/08/2002           03/31/2002   FDIC/UDFI         233222/2                      BBR
                                                                              (Effective August 1, 2002)
       04/14/2003           12/31/2002   FDIC/UDFI         232322/2                      BBR
                                                                               (Effective July 28, 2003)
       04/12/2004           12/31/2003   FDIC/UDFI         232322/2                      None
       08/15/2005           06/30/2005   FDIC/UDFI         222222/2                      None
       01/08/2007           12/31/2006   FDIC/UDFI         222222/2                      None
       07/16/2007           06/30/2007   FDIC/UDFI           Not                         None
       (Visitation)                                        Applicable
       11/14/2007           11/14/2007   FDIC/UDFI           Not                        None
       (Visitation)                                        Applicable
       01/22/2008           12/31/2007   FDIC/UDFI         444333/4        C&Ds issued independently by
                                                                                 the FDIC and UDFI
                                                                          (Effective September 3, 2008 and
                                                                          September 25, 2008, respectively)
       10/08/2008           09/30/2008   FDIC/UDFI        5 composite                   C&D
       (Visitation)                                          rating
       02/09/2009           12/31/2008   FDIC/UDFI         555555/5                     C&D
    Source: ROEs for AWB.


9
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.



                                                   12
As shown in Table 5, the FDIC and UDFI conducted four visitations at AWB from 2000
to 2008, in addition to the required risk management examinations. The purposes of
those visitations were as follows:

      November 2000. In conjunction with the bank’s de novo status, the FDIC and
       UDFI conducted a limited-scope visitation to verify compliance with the orders
       issued by the FDIC and the UDFI related to the granting of the bank’s charter and
       deposit insurance.

      July 2007. This visitation was conducted to review the bank’s real estate
       concentration reporting and monitoring, capital adequacy, and suspicious activity
       related to a former bank employee.

      November 2007 through December 2007. This visitation was conducted to
       perform a risk assessment to evaluate the level and trend of credit risk in the
       institution’s Residential Construction Loan (RCL), i.e., ADC, portfolio.

      October 2008. During this visitation, the regulatory agencies assessed AWB’s
       capital adequacy, asset quality and CRE concentration risk, effectiveness of
       management, earnings performance, and liquidity, including the brokered deposit
       reliance and associated risk. Preliminary findings identified a substantial increase
       in classified assets as well as an underfunded ALLL. Further, examiners found
       that AWB’s management had paid dividends and accepted brokered CDs without
       obtaining prior approval from the FDIC and/or UDFI, contrary to a September
       2008 C&D, as discussed later.

The FDIC took various supervisory actions as a result of the examinations and visitations,
including imposing informal and formal actions and making recommendations in the
examination reports related to areas of the bank’s operations where improvements were
needed. A brief description of the supervisory actions follows.

      August 2002 BBR. The July 2002 examination identified less than satisfactory
       asset quality primarily resulting from the bank’s commercial loan portfolio,
       particularly in underwriting practices for Small Business Administration loans.
       AWB adopted a BBR and agreed to:

              develop policy governing insider trading and ensure compliance with the
               Federal Reserve’s Regulation O and Sections 23A and 23B on insider
               transactions;
              comply with the FDIC’s Final Order for Deposit Insurance;
              develop a written strategic plan;
              manage growth prudently to prevent further asset quality deterioration;
              ensure capital levels were adequately maintained;
              ensure that the bank’s internal loan grading system was more accurate and
               that credit risk was properly identified on all loans; and
              increase the ALLL.



                                            13
       Informal enforcement actions are typically used for banks viewed as having
       heightened supervisory concern and that are assigned a composite rating of “3”.
       However, to their credit, although AWB’s composite rating was a “2”, with asset
       quality and management component ratings of “3”, the FDIC and UDFI requested
       that AWB adopt a BBR to address the deficiencies identified at the bank.

       Examiners at the following April 2003 examination concluded that the bank had
       not fully complied with the 2002 BBR, noting repeat concerns with (1) the bank’s
       loan grading system in the assessment of the adequacy of the ALLL and
       (2) insider transactions that resulted in repeat apparent violations of Section 23A.

      July 2003 BBR. This BBR required the Board to develop and implement an
       information security program and required the bank to provide quarterly progress
       reports to the regulators. At the April 2004 examination, examiners concluded
       that the Board and management had satisfied the terms of the 2003 BBR.

      2004 – 2007 Examination Recommendations. The FDIC identified risks and
       made recommendations to address risk management practices pertaining to the
       institution’s rapid loan growth, CRE and ADC loan concentrations, loan
       underwriting and credit administration practices, and substantial reliance on non-
       core funding sources.

      September 2008 C&Ds. The FDIC and UDFI issued C&Ds with similar
       requirements to AWB that included provisions related to:

              obtaining qualified management;
              establishing a higher minimum capital standard;
              reducing classified assets and charge-off assets classified as loss and
               maintaining an appropriate ALLL;
              limiting the use of brokered deposits and restricting the payment of
               dividends;
              reducing concentration risks and correcting violations;
              developing a 3-year strategic plan;
              enhancing policies for liquidity, lending, concentration risk and audit
               coverage; and
              submitting quarterly progress reports.

Examiners for the February 2009 examination determined that AWB had substantially
complied with provisions related to increasing Board participation in the bank’s
operations, reducing concentrations, reducing classified assets, enhancing liquidity
policies, and providing progress reports. However, other areas still needing improvement
included the need for qualified management, increasing and maintaining an adequate
ALLL, increasing capital, and correcting all violations of law.




                                            14
On May 1, 2009, the UDFI closed AWB due to its severely deteriorated financial
condition and the bank’s inability to raise additional capital, and named the FDIC as
receiver.

Supervisory Response to Risks Identified at AWB

Various factors play a role in the supervisory approach to the risks at an institution. In
the case of AWB, DSC officials indicated that examiners were influenced by: the bank’s
historical success as a construction lender; a relatively low level of adversely classified
assets until the 2007 examination; the significant percentage of ADC loans reported as
pre-sold, indicating less risk; and a strong mortgage market. Nevertheless, with the
benefit of hindsight, the risks that examiners identified at AWB, coupled with
supervisory guidance and studies issued during AWB’s existence, may have warranted
stronger and timelier supervisory action during the bank’s de novo phase and as the
institution developed a high-risk profile. A brief discussion of those risks and guidance
follows.

Risks Identified at AWB

      Growth and concentrations that exceeded and were inconsistent with the
       business plan. AWB quickly and consistently exceeded the growth parameters
       included in the business plan and implemented a business strategy that resulted in
       significant CRE and ADC concentrations that were not in agreement with the
       diversified loan portfolio called for in the plan. As discussed earlier in this report,
       AWB’s concentrations in CRE and ADC loans were identified by examiners
       6 months after the bank opened in 2000. Those concentrations and the risk
       associated with them significantly and consistently increased from 2001
       throughout the bank’s existence. Although the 2002 BBR addressed AWB’s
       rapid growth and resulted in a decline in the growth rate during 2002 and 2003,
       AWB significantly expanded its CRE and ADC loan portfolio in 2004.

      Heavy reliance on brokered deposits. Soon after it opened, and throughout its
       existence, AWB ranked between the 95th and 99th percentile of its peer group. In
       addition, the bank failed to develop a comprehensive CLP to assist the bank in
       projecting and planning for sources of funding as the bank’s financial condition
       deteriorated.

      Apparent violations of laws, regulations and contraventions of policy.
       Examiners identified and reported apparent violations and contraventions in seven
       of AWB’s eight examinations. AWB’s noncompliance with laws and regulations
       was first evident during the bank’s de novo period, when examiners determined
       that AWB had not complied with the FDIC’s Final Order for Deposit Insurance.

      Offsite monitoring results. Beginning in AWB’s de novo period, and
       throughout the bank’s existence, examiners identified significant risks associated
       with AWB, including the bank’s rapid growth, concentrated loan portfolio,
       deficient ALLL, and use of non-core funding sources. Prior to 2007, the offsite


                                             15
       findings did not result in substantial changes in the supervisory strategy for AWB.
       However, based on the offsite reviews beginning in March 2007, the FDIC and
       UDFI performed two visitations in 2007 as discussed earlier in this report, and
       accelerated the 2008 examination schedule from 18 months to 12 months.

      Apparent risk at the time of the 2007 examination. Examiners for the January
       2007 examination concluded that, overall, the financial condition of AWB was
       satisfactory. However, the examination also identified issues that indicated
       apparent and continued risk to the bank. Specifically:

          o   examiners concluded that AWB was a niche lender with significant
              exposure to CRE and ADC lending;

          o   AWB’s asset growth rate as of December 31, 2006 was 78.12 percent
              compared to 9.85 percent for the bank’s peer group;

          o   adverse classifications had almost doubled from 13.81 percent at the
              August 2005 examination to 25.83 percent, although according to DSC,
              this level was normally associated with relatively sound asset quality and
              did not warrant increased supervisory concern;

          o   net loans had increased by 99 percent, while core deposits had increased
              only 11 percent;

          o   AWB’s level of non-core deposits significantly exceeded the bank’s peer
              group and had increased to 74 percent of total deposits with (1) the bank
              being in the 99th percentile for net non-core funding for the fourth
              consecutive calendar year-end, (2) brokered deposits increasing from
              $62.6 million as of December 2005 to $122.9 million as of December
              2006, and (3) time deposits greater than $100,000 increasing from
              $59.2 million to more than $134.2 million for the same period;

          o   capital levels were marginally adequate for the bank’s overall risk profile
              and capital ratios had continued to decline due to rapid asset growth and
              significant dividend payouts; and

          o   earnings were deemed to be lacking to support the bank’s rapid asset
              growth and dividend payouts.

Supervisory Guidance and Studies Issued

      CRE Review Project. In 2003, the DSC Atlanta Regional Office (ARO)
       conducted a project that included institutions exhibiting significant levels of CRE
       concentration (more than 300 percent of Tier 1 Capital—a level that, according to
       the FDIC, traditionally represented a relatively high concentration of CRE loans
       and increased risk to the bank). The bank’s April 2004 examination reported that
       AWB had already developed a concentration that represented 380 percent of


                                           16
       Tier 1 Capital in ADC loans at year-end 2003.

      2004 De novo Bank Study. In 2004, the ARO led an interregional study of de
       novo financial institutions and “young” banks, which were banks in the fourth
       through ninth years of operation, in fulfillment of a DSC 2004 business line
       objective. The purpose of the study was to review the timing of, and
       susceptibility to, problems of de novo and young banks and to determine
       important factors related to the application process for deposit insurance,
       compliance with business plans, and high-risk factors for those institutions,
       including CRE concentrations. AWB exhibited risk factors reported in the 2004
       study including, but not limited to (1) weak oversight by the Board; (2) departure
       from the business plan by exceeding projected asset growth; (3) rapid asset
       growth, including CRE and ADC lending; and (4) dependence on non-core
       deposits to fund asset growth.

      FIL-104-2006. The FDIC issued supervisory guidance in 2006 that concluded
       that (1) CRE concentrations can pose substantial potential risks and can inflict
       large losses on institutions, (2) institutions should hold capital commensurate with
       the level and nature of their CRE concentration risk, and (3) institutions with high
       levels of risk would be expected to operate well above minimum regulatory
       capital requirements. AWB’s concentration levels at the January 2007
       examination significantly exceeded the parameters established in the 2006
       supervisory criteria.

Supervisory Action

As discussed earlier, AWB’s asset quality component, which was downgraded to a “3”
by the FDIC and UDFI during the 2002 examination, remained at that rating during the
following 2003 and 2004 examinations. The FDIC and UDFI also issued BBRs in 2002
and 2003, reported apparent violations of law and contraventions of policy, and made
recommendations in ROEs to address risks at AWB.

To its credit, the FDIC and UDFI also conducted the RCL visitation in November and
December 2007. At that time, AWB reported total commitments representing
659 percent of Total Risk-Based Capital, which was the highest concentration of any
institution included in the project. Additionally, the bank’s Tier 1 Capital Ratio of
8.71 percent was among the lowest of the banks included in the risk assessment.
Examiners concluded that AWB had high risk associated with increased problem account
identification, pending foreclosure actions, high concentration ratios, a modest capital
level, and qualitative factors related to local real estate market conditions and trends.
Further, according to DSC officials, AWB implemented liberal loan underwriting and
administration practices in 2007 to facilitate the bank’s strategy of continuing to grow the
bank’s loan portfolio.

On January 10, 2008, the FDIC contacted AWB regarding the results of the risk
assessment. Specifically, the FDIC advised AWB that officers and managers interviewed
at various institutions expressed concern that their portfolios might not perform as well


                                            17
during the coming months and that in some cases, management was taking additional
steps to mitigate risks presented by CRE and ADC concentrations.

Unfortunately, AWB’s Board and management were not always responsive to examiners,
and the bank consistently exhibited an appetite for high risk. Therefore, stronger
supervisory action, such as a Memorandum of Understanding (MOU), may have been
warranted. Such an MOU could have required AWB to implement a plan to address the
key risks that examiners identified when the bank first began operations, and later in
2007 when financial indicators began to reflect a high-risk profile. We recognize that the
C&Ds issued in September 2008 addressed deficiencies at the bank. However, the
viability of the institution was already in serious question by the time the C&Ds were
issued.

DSC Initiatives Related to Addressing Risks Like Those Found at AWB

DSC has completed and has in process various initiatives to improve how examiners can
identify and address risks like those at AWB. Specifically, DSC has:

      Established reports and tracking systems to enable examiners to determine
       whether de novo institutions are operating within the parameters of their business
       plan.

      Provided and communicated guidance to enable regional offices to better address
       risks—such as reliance on potentially volatile wholesale funding sources—
       at newly identified “3”, “4”, or “5”-rated banks.

      Established policies and practices aimed at improving communication and
       tracking of risks and corrective actions for institutions with high-risk profiles.

      Strengthened offsite monitoring activities by providing reports that identify and
       rank institutions with characteristics that include concentrations and high levels of
       wholesale funding.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
PCA requirements by establishing a framework for taking prompt corrective action
against insured nonmember banks that are not Adequately Capitalized. Based on the
supervisory actions taken with respect to AWB, the FDIC properly implemented
applicable PCA provisions of FDI Act, section 38.

The effectiveness of PCA may have been impacted, however, by the fact that AWB:




                                             18
            received substantial capital injections during 2007 and 2008 from its holding
             company, which effectively delayed imposition of PCA provisions;

            paid significant dividends to its shareholders at a time when the bank was
             classified as Adequately Capitalized as a result of the September 2008 C&Ds; and

            continued to use brokered CDs without receiving a waiver from the FDIC, with
             rates on the CDs exceeding the maximum permissible yield for Adequately
             Capitalized banks.

Table 6 provides AWB’s capital ratios as of calendar years ending December 2005
through December 2008 and other significant periods for AWB. AWB’s capital
categories indicated substantial decline from December 2005 to December 2007.
Adjustments for the September 2008 Call Report period decreased the bank’s capital
ratios, which continued to decline until the bank’s failure in 2009.

         Table 6: AWB’s Capital Ratios
                           Tier 1        Tier 1 Risk-        Total Risk-
             Period
                          Leverage          Based              Based           Capital Category
             Ending
                           Capital         Capital            Capital
         PCA Threshold    5% or more      6% or more         10% or more
         AWB Capital Levels
             Dec-05         11.73%          18.05%             19.30%            Well Capitalized
             Dec-06           8.41%         10.32%             11.44%            Well Capitalized
             Dec-07a          8.19%          8.44%             9.70%         Adequately Capitalized
             Jun-08           8.67%          9.97%             11.20%            Well Capitalized
                      b
             Sept-08          4.70%          5.95%             7.24%             Undercapitalized
                      c
             Dec-08         (2.51)%         (3.53)%            (3.53)%      Critically Undercapitalized
             Mar-09         (2.14)%         (3.00)%            (2.99)%      Critically Undercapitalized
       Source: UBPR and ROEs for AWB.
     a
       These ratios were adjusted during the January 2008 examination to account for additional funding
       needed for the bank’s ALLL. Although the bank was determined to be Adequately Capitalized
       after the adjustments, an additional capital injection by the bank’s holding company returned the bank
       to the Well Capitalized category before the end of March 31, 2008. Accordingly, the FDIC did not
       provide an official PCA notification to AWB, and the bank’s use of brokered deposits was not restricted.
     b
       These ratios represent the adjusted capital ratios based on the October 2008 visitation conducted
       by the FDIC and UDFI.
     c
       These ratios were adjusted after the February 2009 examination adjustments made by examiners.


On September 3, 2008, and September 25, 2008, the FDIC and UDFI issued C&Ds to
AWB, respectively. As a result of the September 3, 2008 C&D, AWB’s capital category
was reclassified from Well Capitalized to Adequately Capitalized10 for PCA purposes. In


10
  Per 12 CFR 325.103(b)(2)(iv) because AWB was subject to an enforcement action, the bank did not meet
the definition for a Well Capitalized institution. Accordingly, the bank’s capital category was re-classified
as Adequately Capitalized for PCA purposes.


                                                        19
an effort to monitor and preserve the bank’s capital, both C&Ds restricted the bank from
paying dividends without first obtaining prior written approval from the FDIC and UDFI.

The C&Ds also stated that the bank should not increase its level of brokered deposits.
However, on or about September 30, 2008, AWB accepted a brokered CD in the amount
of $4 million without receiving a waiver from the FDIC. Additionally, the bank
improperly accepted brokered CDs that exceeded the maximum permissible yield on
brokered CDs for Adequately Capitalized banks.11

Further, the C&Ds required AWB to increase Tier 1 Capital to 10 percent. During the
October 2008 visitation, bank management stated that it would be unlikely that the
institution would be able to raise any additional capital in light of the bank’s weak
financial condition. The bank’s need to pay dividends and reliance on brokered deposits
justified the need to increase capital well above the required ratios per PCA provisions.
With regard to dividends, as a result of the bank’s Subchapter S status, AWB was
pressured by shareholders to pay dividends to assist the shareholders in paying the
associated income tax liabilities on bank earnings. AWB’s cash dividends presented an
increasing strain on the bank’s financial condition. Although the bank increased its
capital levels in 2007, dividends totaling $4.6 million paid to the bank’s holding company
exceeded the total capital infusions as asset growth outpaced capital.12

As required by section 38 of the FDI Act, on December 5, 2008, the FDIC notified AWB
that the bank’s PCA category had declined to Undercapitalized as of September 30,
2008. Accordingly, AWB became subject to the mandatory requirements of section 38,
and was (1) no longer eligible to accept, renew or roll over brokered deposits or receive a
waiver to do so, (2) required to submit a capital restoration plan, and (3) subject to other
restrictions related to asset growth, acquisitions, new activities, new branches, payment
of dividends or management fees, or any other capital distributions.

Finally, although AWB created a capital plan to raise $4 million to $8 million in new
capital, the FDIC determined that the likelihood of the bank being successful in those
efforts was low. The bank’s efforts to raise capital prior to its failure, including applying
for capital under the Troubled Asset Relief Program, were negatively impacted by the
bank’s severe asset quality deterioration, significant concentration in high-risk CRE
loans, and the economic downturn. On May 1, 2009, the UDFI closed the institution and
named the FDIC as receiver.




11
   Examiners for the October 2008 visitation concluded that in the absence of a waiver, AWB should not
have accepted a new brokered CD on or about September 30, 2008. Furthermore, even if the FDIC had
granted a waiver for AWB, the brokered CD should not have been accepted at 4.50 percent - which was
35 basis points higher than the permissible rate.
12
   As of year-end 2007, the holding company paid dividends totaling 49.6 percent of its net income to
shareholders; and for the first half 2008, the holding company paid dividends to shareholders in excess of
capital contributions by $620,000. Examiners also concluded that estimated annual dividends to service
holding company interest and overhead (excluding taxes) exceeded $1 million.


                                                    20
Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 4, 2009, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of AWB’s failure. With
regard to our assessment of the FDIC’s supervision of AWB, DSC acknowledged the
need for more stringent supervisory attention for de novo institutions, and as a result, the
FDIC recently extended the de novo period from the previous 3-year period to 7 years
and stated that these institutions will receive a full-scope examination every year for that
7-year period. DSC further stated that business plans for de novo banks are being closely
monitored against approved financial projections, and changes taken without prior notice
may result in civil money penalties.




                                            21
                                                                               Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from June 9, 2009 to November 10, 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of AWB’s operations from May 18, 2000
until its failure on May 1, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed ROEs prepared by the FDIC and the UDFI examiners from 2000 to
         2009.

        Reviewed the following:

              Documentation for offsite monitoring activities conducted by the FDIC.

              Available work papers for FDIC examinations.

              Correspondence maintained at DSC’s San Francisco Regional Office and
               Salt Lake City Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure. We also reviewed available failed



                                             22
                                                                             Appendix 1

                      Objectives, Scope, and Methodology


               bank records maintained by DRR in Dallas, Texas, for information that
               would provide insight into the bank's failure.

              Audit Reports prepared by the bank’s external auditor, Simpson & Company,
               CPAs, Salt Lake City, Utah.

              Pertinent DSC policies and procedures.

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., and in San Francisco, California.

              DRR officials at the Dallas Regional Office.

              FDIC examiners from the DSC Salt Lake City and Tampa Bay Field Offices
               who participated in AWB examinations and visitations.

        Researched various banking laws and regulations.

We performed the audit field work at the DSC office in San Francisco, California.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand AWB’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.



                                             23
                                                                            Appendix 1

                   Objectives, Scope, and Methodology


Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           24
                                                                                   Appendix 2

                                Glossary of Terms


Term                 Definition
Adversely            Assets subject to criticism and/or comment in an examination report.
Classified Assets    Adversely classified assets are allocated on the basis of risk (lowest to
                     highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for Loan   Federally insured depository institutions must maintain an ALLL that is
and Lease Losses     adequate to absorb the estimated loan losses associated with the loan and
(ALLL)               lease portfolio (including all binding commitments to lend). To the
                     extent not provided for in a separate liability account, the ALLL should
                     also be sufficient to absorb estimated loan losses associated with off-
                     balance sheet loan instruments such as standby letters of credit.
Bank Board           A BBR is an informal commitment, adopted by a financial institution’s
Resolution (BBR)     Board, directing the institution’s personnel to take corrective action
                     regarding specific noted deficiencies.
Call Report          Consolidated Reports of Condition and Income (also known as the Call
                     Report) are reports that are required to be filed by every national bank,
                     state member bank, and insured nonmember bank pursuant to the FDI
                     Act. These reports are used to calculate deposit insurance assessments
                     and monitor the condition, performance, and risk profile of individual
                     banks and the banking industry.
Cease and Desist     A C&D is a formal enforcement action issued by a financial institution
Order (C&D)          regulator to a bank or affiliated party to stop an unsafe or unsound
                     practice or a violation of laws and regulations. A C&D may be
                     terminated when the bank’s condition has significantly improved and the
                     action is no longer needed or the bank has materially complied with its
                     terms.
Concentration        A concentration is a significantly large volume of economically related
                     assets that an institution has advanced or committed to a certain industry,
                     person, entity, or affiliated group. These assets may, in the aggregate,
                     present a substantial risk to the safety and soundness of the institution.
Memorandum of        An informal corrective administrative action for institutions considered
Understanding        to be of supervisory concern but which have not deteriorated to the point
(MOU)                where they warrant formal administrative action. As a general rule, this
                     action is to be considered for all institutions rated a composite “3”.




                                             25
                                                                                Appendix 2
                               Glossary of Terms


Term                Definition
Prompt Corrective   The purpose of PCA is to resolve the problems of insured depository
Action (PCA)        institutions at the least possible long-term cost to the DIF. Part 325 of
                    the FDIC Rules and Regulations, 12 Code of Federal Regulations,
                    section 325.101, et. seq., implements section 38, Prompt Corrective
                    Action, of the FDI Act, 12 United States Code section 1831o, by
                    establishing a framework for taking prompt supervisory actions against
                    insured nonmember banks that are less than adequately capitalized. The
                    following terms are used to describe capital adequacy: (1) Well
                    Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from Call
                    Report data submitted by banks.




                                            26
                                                                  Appendix 3
                          Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

ARO      Atlanta Regional Office

AWB      America West Bank

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity
         to Market Risk

CD       Certificate of Deposit

CLP      Contingency Liquidity Plan

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FDIC     Federal Deposit Insurance Corporation

FIL      Financial Institution Letter

LLC      Limited Liability Company

MOU      Memorandum of Understanding

OIG      Office of Inspector General

PCA      Prompt Corrective Action

RCL      Residential Construction Loan

ROA      Return on Assets

ROE      Report of Examination

UBPR     Uniform Bank Performance Report

UDFI     Utah Department of Financial Institutions

UFIRS    Uniform Financial Institution Rating System


                                  27
                                                                                                                  Appendix 4
                                Corporation Comments


FDICl
Federal Oepositlnsurance Corporation
550 ,71h Sireel NW. Washinglon. D.C. 2029-999                           Division of Supervision and Consumer Protec


                                                                          December 4. 2009


MEMORANDUM TO:                         Stephen Beard
                                       Assistant   Inspector Gençial for Material Loss Reviews

FROM:                                  Sandra L. Thomp~on
                                       Director

SUBJECT:                               Draft Audit Report Entitled, Material Loss Review of America
                                       Wesi Bank, Layton, Utah (Assignment No. 2009-047)

 Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDl Act), the Federal Deposit
 Insurance Corporation's Office oflnspector General (OIG) conducted a material loss review of
 America West Bank (AWB) which failed on May 1,2009, This memorandum is the response of
 the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Report (Report)
 received on November i 6,2009.

 The Report concludes that A WB's failure was due to the Board and management's inability to
 effectively manage the risks associated with rapid growth in commercial real estate and
 acquisition, development and construction lending. As management focused increasingly on
 growth, loan underwriting, credit administration, and allowance for loan and lease loss (ALLL)
 practices in relation to AWB's risk profile became deficient. AWB also relied heavily on
 wholesale funding sources, primarily brokered deposits, ultimately leading to liquidity problems
 as its financial condition deteriorated.

 During its de novo period, examiners recommended A WB management closely monitor the local
 real estate market and, if necessary, take action to minimize the associated risk. Examiners also
 encouraged A WB management to diversify the loan portfolio. Joint FDIC/State examinations in
 2002 and 2003 resulted in informal enforcement actions, including corrective measurcs for loan
 underwriting and administration. A WB was deemed to be in substantial compliance during the
  2004 examination. Supervisory attention to A WB continued through regular examinations and
  offsite monitoring from 2004 through 2006, and increased in 2007, with on-site visitations in
  July and November. The January 2008 Joint FDIC/State examination identified a sharp increase
  in adversely classified assets, an inadequate ALLL, loan underwriting and administration
  weaknesses, and other management deficiencies resulting in a formal enforcement action by the
  FDIC and the State.

  In recognition that stringent supervisory attention is necessary for de novo institutions, DSC
  recently extended its supervisory program so that these institutions receive full scope
  examinations every year for seven years, as opposed to three years. De novo business plans are
  being closely monitored against approved financial projections throughout the seven-year period.
  The Financial Institution Letter issued in August 2009, describes the program changes for de
  novo institutions and warns that changes undertaken without required prior notice may subject an
  instilution or its insiders to civil money penalties.

  Thank you for the opportunity 10 review and comment on the Report.




                                                         28
